u

Supreme Court, U.S.
FILED

No.

SEP 1 1 2020

20-3U

OFFICE OF THE CLERK

In The
Supreme Court of the United States
JOSEPH D. GILBERT!, JR_, PJE.,
an Individual and licensed Professional Engineer.
Petitioner
v.
FEDERAL RESERVE SYSTEM, Board of Governors.
BARACK HUSSAIN OBAMA,
NANCY PELOSI in her Capacity for the US House of Representatives,
MITCH McCONNELL in his Capacity as Majority Leader of the US Senate,
THE MOSAIC COMPANY, MOSAIC FERTILIZER, LLC,
ENVIRONMENTAL PROTECTION AGENCY, US DEPARTMENT OF THE INTERIOR,
FEDERAL EMERGENCY MANAGEMENT AGENCY, FLORIDA DEPARTMENT OF
ENVIRONMENTAL PROTECTION AGENCY,
UNITED STATES ARMY CORPS OF ENGINEERS,
SOUTHWEST FLORIDA WATER MANAGEME DISTRICT,
PEACE RIVER MAMASOTA REGIONAL WATER SUPPLY AUTHORITY,
HILLSBOROUGH COUNTY STATE ATTORNEYS OFFICE,
MOFFIT CANCER CENTERS, LUIS RIVERA H TRUSTEE, 72 PARTNERS LLC,
DESOTO COUNTY, SARASOTA COUNTY,
Respondent's)

On Petition for Writ of Certiorari
To The Appeal Decision Dist rict Court ofAppeals for the District of Columbia
Case# 19-5264
To The Appeal Decision US Court of Appeals for the Federal Circuit
Case #19-2044
And
United States District Court for the District of Columbia
Case # lB-cv-00738-KBJ
Date: September 11,2020

Islfye GMenti
Joseph D. Gilbert! PE
Petitioner
385 Donora Blvd
Ft Myers Beach, FL 33931
813-4700000
________
-gilbertiwatef@gmai
www. gilbertibluegol

SEP 1 6 2020
OFFICE OFTHE CLERK
SUPREME COURT, U.S.

A

r~

QUESTIONS PRESENTED
1.

Why did the lower Court hide an endless underground Water Supply and
Medicine resource and call it latently Insubstantial” that has been verified
by multiple Professional consultants actually hired by Respondents who
maintain aquifers across Florida for BOyrs and drill Oil for over 50yrs for the
Federal Government and others across % of the World?

2.

Why are Courts, Judges, Law-Firms, Lawyers, Universities, Large
Engineering Firms, Media, Politicians, Police, School Boards and
Respondents hiding this US Medicine resource to attack Americans in a
Coronavirus Pandemic and using Courts and Judge Orders to PRETEND this
Racketeering Enterprise and US Resource doesn’t exist? To print more
money and deflate the US dollar?

3.

Why is the Federal Reserve hiding America's most valuable National Defense
Resource with a Terrorist Enterprise using HR-5736 Smith Mundt
Modernization Act of 2012? This Act was initiated to subdue the Petitioner
with timed Acts days after the EPA hidden 50yr Resource was discovered and
emailed across the State of Florida to Leaders and Respondents.

4.

Why should Americans pay $20 Trillion outstanding US Debt with the
Federal Reserve Banks, charging over $600 Billion in Interest, which is over
half of what the IRS collects for our Nations Taxes. A Private Bank overseas
who has infiltrated our leaders and Media to hide this resource and now our
Judiciary across the Eastern United States are depleting the tax base.

5.

Why should Americans pay any outstanding US Debt when the Coronavims
Pandemic was planned by most listed Respondents since 2003 as shown on
the Face of the $20 bills (see Appendix) where also the 9-11 towers being
destroyed is also shown. The Federal Reserve is now subject to setting up the
9-11 attacks and this Coronavirus Propaganda using US Politicians, Police,
Department of Education, Department of Defense, Department of Justice and
Media to attack this resource under the sonar and ignore all Discoveries in
lower courts with an Abuse of Discretion.

6.

Why are all Respondents hiding this US Resource when Viruses travel in
Water Supply as much as the air during a National Coronavirus Pandemic
and US Election for 2020? This hidden US Resource that shows us how to
find many more across Earth in days was already presented in 2012 and 2016
US Elections to Florida Leaders, Courts and agencies but the Racketeering
and Timed Terrorist acts by Respondents just increased to attack America.
A new filed Civil Rights, Court Fraud and Racketeering case on multiple
1

QUESTIONS PRESENTED - continued
Judges, Courts and Agencies tied to Hus case and other BIOO cases was filed
in California, due to so much court corruption in Florida, Georgia and
Washington DC by Judges and Attorneys hiding this for Respondents who
attacked not just America but Humanity.
7.

Why are all three branches of Government hiding endless unique
underground Rivers of New Drinking Water resources, never seen on Earth
for healthcare to millions of Taps, which affect Energy production, Economic
Sustainability, overall GDP, Job creation and UJS. National Defense? This
Resource was verified by the Federal Governments top CHI and Drilling
consultants and is in its final permitting to serve over Smillion taps in
18months in west Florida with one connection, as shown now through the
Health Department Director Jon Iglehart in Fort Myers, Florida and recent
modified Infrastruct ure Civil Engineering plans submitted by Petitioner.

2

PARTIES TO THE PROCEEDINGS
The Petitioner in Joseph D. Gilberts, PJEL, an Individual and Licensed
Professional Engineer in Florida. Petitioner is also the landowner with access
to the hidden underground World Resource, the Engineer of Record in final permit
approval of the hidden US Resource pipeline transmission to serve West Florida in
months with a connection; is requesting hill discovery and investigation on a hidden
Florida underground endless unique Global Water Supply. Energy and Medicine
Production Resource. NASA and Respondents hid this underground endless
resource for over 50yrs.
The Respondents are the Federal Reserve, Board of Governors. Barrack
Hussein Ohama, Nancy Pelosi in her capacity for the US House of Representatives,
Mitch McConnell in his Capacity as Majority Leader of the US Senate, The Mosaic
Company, Mosaic Fertilizer LLC. Environmental Protection Agency, US
Department of Interior, Federal Emergency Management Agency, Florida
Department of Environmental Protection Agency, United States Army Corps of
Engineers, Southwest Florida Water Management District, Peace River Manasota
Water Supply Authority, Hillsborough County State Attorneys Office, Moffitt
Cancer Centers, Luis Rivera HI Trustee, 72 Partners LLC, Desoto County Board of
County Commissioners, Sarasota County Board of County Commissioners: all of
which are hiding the Resource collectively with their councils.
Although certain respondents who are the center of the Timed Terrorist acts
are in related cases and did not respond to this case, such as hut not limited to the
Barrack Hussein Obama, Hillsborough State Attorneys office, Florida Department
of Environmental Protection and 72 Partners, LLC.

3

TABLE OF CONTENTS
Page

QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

3

TABLE OF CONTENTS

4

OPINIONS BELOW

5

JURISTICTION STATEMENT

6

FAILED MISSION STATEMENTS
BY REPONDENTS TO TAX PAYER

7

SUMMARY OF THE CASE FACTS

11

CONCLUSION

14

APPENDICES
APPENDIX I
APPENDIX H

OPINIONS

1-6

- NEW CIVIL RIGHTS, COURT FRAUD
AND RACKETEERING CASE IN CALIFORNIA
ON CORRUPT COURTS, JUDGES, LEADERS
TIED TO THIS CASE AND OTHERS
w/PERMITTING WATER SUPPLY CORRES

4

1-42

OPINIONS BELOW
Appellant seeks review of the Memorandum Opinion, of Judge Kenftanji
Brown Jackson of the United States District Court for the District of Columbia in
case number 2:I9-cv-00738. The Opinion, issued on April 29, 2019 (Appendix I)
dismissed the Case without Prejudice within SOdays, the same day the Clerk signed
the summons for service, as fictitious and/or Patently Insubstantial for the entire
complaint that involves 8-14yrs of extensive civil engineering and water supply
infrastructure improvements in West Florida covering 4-10 Countywide Region
which is hiding an endless underground spring Aquifer while utilising Radioactive
arsenic mining spill rivers that are heavily treated to the Tap.
Judge Jackson held sua sponte that the case lacked Jurisdiction and is based
on Conspiracy theories without any diligence or expert testimony from agencies who
have now been served that have Mission Statements and Tax paid civil duties to
utilize the best raw water resources for the PublicAttached in the Appendix II are record permit correspondence by the
Florida Health Department, exhibits, with comments regarding the resource from
local County, State engineering and Federal agencies such as the Army Corps,
Department of Health, Southwest Florida Water Management, Sarasota County,
Florida Department of Environmental Protection with comments, thousands in fees,
with stamped in water readings in 2013 just after the Terrorist attacks by the
Enterprise to kidnap Plaintiff, to the Health Department with endless ready to
drink spring water from this underground river centralized in the Peace River
Manasota 4 County infrastructure.
This current west Florida infrastructure is using Treated polluted Rivers
while hiding endless underground rivers of never seen before spring water (Blue
Gold) for over 50yrs for a massive Eugenics and Real Estate racketeering operation
by respondents and more in related cases.
The lower court judge like many judges who harbored these Terrorist attacks
timed with this Water War and called this whole complaint and critical situation
fake is ‘Patently Ridiculous’. It is patently unacceptable for a Judge to dismiss a
case, or any Judge Panel, to SKIP ALL DISCOVERY, with an obvious abuse
Discretion fay the Courts, due to a massive Political MELTDOWN for both Parties
on both sides. For the lower courts to skipped discoveries on all related RICO cases
and this case and to not to order a simple water health scan with a third Party, in
ONE HOUR time to verify quality and capacity, that involved years of work, is
another crime against Americans. Investigations show Judge Brown who went to
Harvard worked with Obama and Rick Scott (all lawyers hiding US Resources) with
respondents, over 50 Judges and Courtrooms, to subduing of the Petitioner p.o.w.er

5

law firms like Greenberg Traurig, Foley & Lardner. Icard Merrill, Erin Brockovich
firms attacking our Nation with the respondents.
A new filed Civil Rights case if filed in California for Court Fraud and
Racketeering on Judges throughout Florida and the Eastern United States. Some
of which are US Supreme Court Judges under investigation.
There is no reason to be a Judge, Cop, Politician, Lawyer or licensed
professional to hide endless antioxidant spring water with lower utility to taps,
millions of new Jobs, new science and more from America. The respondent is
working for foreign corporations associated with Media, CIA and Smith-Mundt
timed Terrorist attacks, Florida DOJ, Judges and attorney Politicians this long and
hard, and now even in a fake Coronavirus Pandemic.
JURISDICTIONAL STAT «!.'> I MhMT
This Court has jurisdiction over this action pursuant to 28 U.S.C. §§ 1331,
1332 and 2201 and may exercise supplemental jurisdiction under 28 U.S.C. § 1367.
Since claims are made to the KKl)F.RAT. RESERVE BOARD this court has
Jurisdiction. Although lands under attack are in West Florida, many more of these
resources exist throughout the nation, such as near Flint Michigan, New Mexico,
Texas, Alabama, Washington DC and across Earth.
Venue is proper pursuant to 28 U.S.C. § 1391.
This Court has personal jurisdiction over each DEFENDANT as each
purposefully availed itself of the privilege of exploiting forum-based business
opportunities and the exercise of personal jurisdiction is consistent with the UJS.
Constitution.
The District Court had jurisdiction to review the Petitioners Water supply
and public permit records in its possession. The court abused its Discretion,
avoided just claims and all discovery breaching Petitioners civil rights and Freedom
of Information Act (“FOIA") for this case, and related cases regarding years of
Water supply engineering, moreover, the location of a massive underground hidden
critical raw water resource, centralized within a 4-10 County infrastructure in West
Florida.
Requests pursuant to 5 U.S.C. § 552(a)(4)(B) and 28 U.S.C. § 1331. The lower
court held sua sponte that the claims at issue are “Patently insubstantial” or
“fictitious'1 under, without any diligence to the obvious Water resource, as a result,
it lacked subject-matter jurisdiction to resolve the claim.

6

This Court has jurisdiction to review this appeal pursuant to 28 U.S.C.
§1291. This appeal is from a final judgment entered by a District Court within the
District of Columbia Circuit on April 29.2019 di S3 IH.S3«I
ing of all parties' daims
Plaintiff filed a timely notice of appeal to US District Court of Appeals for the
Federal Circuit on May 28, 2019, Case Mo. 19-2044 which was then transferred
after some review to the US District Court of Appeals, District of Columbia Case
Mo. 19-5264.

FAILED MISSION STATEMENTS BY RESPONDENTS
The Mission of the Federal Reserve System is to foster the stability, integrity,
and efficiency of the Marion's monetary, financial, and payment systems so as to
promote optimal macroeconomic performance.
Analysis:

(a) This Resource creates Jobs and lower cost, to Americans
far water supply; medicine and Energy production* Its
knowledge allow the Board to investigate the Enterprise and
the private Central Banks that are targeting this Resource
with high power lawyers like Greenberg Traurig and
Corporations like Israel, Mosaic Phosphate with 22,000 acres
nest door destroying aquifers.
(b) The Federal Reserve Board has a fiduciary duty to
determine the Water Quality and capacity with Federal
Agencies and, Leaders of this unique Resource, ham the
Media, disclose it, or disclose it themselms to find more and
reduce the issues of World Hunger, US Poverty, US
Migration and Wars they fund, that has put this Nation in
debt like never before with the same group of Lawyers,
Judges and Military complex now involved. in a Big Pharma
complex.
(c) The Independent Treasury Act of 1920 suspended the de
jure (meaning "by right of legal establishment,") Treasury
Department, of the United States government. Our Congress
turned the treasury department over to a private
corporation, which when seen in its true light, is a fascist
monopolistic cartel, the Federal Reserve and their agents.
The bulk of the ownership of the Federal Reserve System„ is
a very well kept secret, from, the American Citizen„ and is
held by these hanking interests, and NONE is held by the
United States Treasury:

7

Rothschild Bank of London,
Rothschild Bank ofBerlin
Warburg Bank of Hamburg
Warburg Bank ofAmsterdam
Lazard Brothers of Paris
Israel Moses Saf Banks of Italy
Chase Manhattan Bank ofNew York
Goldman, Sachs of New York
Lehman Brothers of New York
Kuhn Loeb Bank of New York
Rothschild, controls most, of the world is said to be worth over $500
TMlEsm in assets? Why doesn’t our US Military take over these
families assets with China, Russia and the rest of the Word when
these endless access points open and end all World Debts, Wars they
create and mare through, the State of Israel
These private banks must be investigated for hiding this Resource
with US media and Walt Disney World. They are destroying the
lives of millions of Americans hiding this Resource with, Tampa
Central Command, and Florida Leaders; and, the Enterprise.
(d) The Federal Reserve is at the root, of most of our present,
statutory regulations, "laws", in the control and regulation of
virtually all aspects of human, activity in the United States,
through successively socialistic constructions laid upon, the
Commerce clause of the Constitution. Basically, the Federal Reserve
is the mSTATEm of the United States. So why are they hiding
endless unique medicine changing water with the Enterprise for
years in, permit
(e) Under the doctrine of Farms Patriae, "Government As Parent",
as a result of the manipulated bankruptcy of the United States of
America in 1933, ALL the assets of the American people, their
person, and of our country itself owe held by the Depository Trust
Corporation at 55 Water Street, NY, NY, secured by UCC
Commercial liens, which are then, monetized as "debt money" by
the Federal Reserve. It may interest you to know that under the
umbrella of the Depository Trust Corporation lies the CEDE
Corporation, the Federal Reserve Corporation, the American, Bar
Association, the Segal arm, of the banking interests, and the Internal
Revenue
Service,
the
system’s
collection.
agency.
Now you know who is running America and hiding this Resource
from our Children, Taps, Universities and Homes!

EPA is returning to its core Mission of Protecting Human Health and
Environment. Weare committed toproindifig clean‘aHd safe^iif; water,aHdland

8

for all Americans. We are building on the enormous progress EPA has made since
it was established in 1970 — increasing the safety of lakes and rivers, reducing
smog, cleaning up contaminated lands, and guaranteeing the safety of chemicals in
the marketplace.
Analysis:

(a) The EPA was formed to protect these resources, but since
the find they ham traded billions of dollars in the region
with Israel Mosaic Phosphate, Mining compacts and more
while hiding this Resource with cm Enterprise..
(b) The EPA has a fiduciary duty to determine the Water
Quality and capacity with, Federal Agencies and Leaders of
this unique Resource, ham the Media, disclose it, or disclose
it themselves on, their website to find mare and reduce the
issues of Cancer rates to the Tap with polluted Resources
they ham failed to regulate properly by relinquishing
Jurisdiction, to local Departments of Environmental
Protection such, as FDEP. FDEP didn’t even answer the
complaint as they are directly related to issues of Terrorism
attacks that raised Plaintiff bond with Greenberg Traurig
and Tampa District 13 Judges who must be detained for US
Treason when, this resource is simply tested for quality in
ONE HOUR

The Mission of the Federal Emergency Management Agency (FEMA) is to
reduce the loss of life and property and protect our institutions from all hazards by
leading and supporting the nation in a comprehensive, risk-based emergency
management program of mitigation, preparedness, response, and recovery.
Analysis:

(a) This was copied to FEMA and a permit submittal to
FDEP offering refuge and FREE flowing spring water
during Hurricanes was submitted during Hurricane
Mathew and IRMA. They purposely ignored the Health
Department and Citizens. See Attached Permit submittal
and responses in Exhibit D.
(b) FEMA has a fiduciary duty to determine the Water
Quality and capacity and find mare with its geological
indicators the Department of Interior has on file since the
1970’s to reduce the risk of water supply shortages during
Natural Disasters.
(c) After Hurricane Charlie, FEMA and Peace River
Manasota Water Supply Authority with Southwest Florida
Water Management hjd Jhis underground River to build a
iarpdsiiBSFpldnsdml

9

i

FEMA Stafford Act 6.11. Low flying terrorist planes or
Drones can, poison this Water supply reservoir with Anthrax
in minutes killing millions of residents at, the tap. This is
totally unacceptable and Plaintiff submitted comeersioms to
Power plants to utilize the wasted spending by these
agencies playing water shortage games when there is endless
spring water with medical grade readings and lower water
bills to the taps of 4-10 Counties from, the resource in
months.
The U.S. Army Corps of Engineer's Mission provides public
Engineering services in Peace and War to strengthen our Nation's security,
energize the economy, and reduce risks from disasters.
Analysis:

(a) The Army Corps of Engineers were copied on the mining
and water supply permits as far back as 2012, but members
in this agency are minimal and are easily cohersed in
Florida, to look away. This agency faded, its duty to simply
come to the site and verify the resource.
(b) The ACOE has a fiduciary duty to determine the Water
Quality and capacity with, Federal Agencies and Leaders of
this unique Resource, have the Media, disclose it, or disclose
it themselves to find more and reduce the risks of Mosaic
Phosphate a foreign corporation from destroying it and with
their mining proposals in Desoto county next door. This is
another agency influenced by Greenberg Traurig and Mosaic
mining compact, Big Pharma groups or they would have
came to the property on various permit submittals shown in
the Exhibits attached in his response.
(c) The ACOE can, help America by bringing in, the Army to
help install, the Phase 1 (ISmamths eams8ructiomr-$60mil)
Pipeline with an Executive order from the President and
plans already completed for installation. One pipe charges
3 counties and two smaller pipe runs being installed at, the
same time can charge aver 10 Counties and 15 Cities to
millions of Americans from Manatee County to Naples in,
West Florida. With pump stations down 1-75 for a future
SOOmile Transmission to Miami South, Florida picking up
over half the State of Florida papulation, in lyrs time

The Mission of the U.S. Department of the Interior (DOT) protects and
manages the Nation's natural resources and cultural heritage; provides scientific
and other information about those resources; and honors its trust responsibilities or
special commitments to American Indians, Alaska Natives, and affiliated Island
Communities.

10

Analysis:

(a) The DOI located the 1509’ deep well that ties to a.
massive arching River in the Rocks that ties to a, much,
deeper basin in 1972 shawm in reports the discovery phase
will produce. A copy can be provided by the Plaintiff at, any
time.
(b) The DOI has USGS, Mating departments and Land
Management Departments all have a fiduciary duty to
determine the Water Quality and capacity with Federal
Agencies and Leaders of this unique Resource, have the
Media disclose it or disclose it, themselves to find more and
reduce the issues of Water Shortages and facilitate
surrounding testing spots and send data to She US Military,
ACOE and President Trump to understand why NASA and
Florida Leaders are hiding this Resource with Medicaid
Fraud Rick Scott to sell Big Pharma and create Water
Shortages, unnecessary Ska, Bond Reservoirs cost, billions to
tax, payers that is not needed with this resource and
knowledge.
(c) Plaintiff invites all US Generals and the Department, of
Interior to bring NASA and the President, to preside this
Resource then call in Army to arrest these Judges, Lawyers
and the Enterprise for US Treason playing words like
Patently Insubstantial’ or fictitious on our potentially No 1
Asset in Water Supply for the entire Planet, hidden SOyrs by
Tampa Central, command, Bush Family, US Candidates,
Clinton, Carter, Oil Corporations, EPA, Obama, and more.

SUMMARY OF THE CASE FACTS
A Racketeering Complaint was filed on multiple agencies and large
corporations who haw a small isolated Enterprise centrally networked in Tampa at
Central Command in Florida which is connected across America, UN and
Washington hiding a critical unique underground resource in Water, Food and
Energy production the case was dismissed by a Political hungry Judge Kentanji
Brown Jackson without summons being signed for service by the Clerk on April 29,
2019, only 30days from the filing.
Research show Judge Kentanji Brown Jackson is new without much
experience and was immediately nominated for US Supreme Court Justice fey a
Respondent ex-President Barrack Hessian Obama, both Harvard colleagues.
Therefore, many Respondents, much of whom are Federal Tax paid agencies with
overall , Missions Statements created.,to„insure._the Healthiest and -Safest-raw^
drinking water resources to the Public used this Judge to hide the Resource with
11

many more Judges from Americans without any care for dying US Families from
Cancer Bates who are currently utilizing polluted Radioactive treated arsenic
Florida rivers calling it “Patently Insubstantial'.
The Judge simply copied a template from another case (which has been used
by her multiple times in a Political nature) and Politically dismissed the case in a
few minutes to protect Barrack Obama and Florida Leaders and/or Defendants
hiding this Resource in a Big Pharma Enterprise with timed terrorism attacks that
can be shown in Discovery. Judge Brown should be removed from her position and
arrested for negligence and harboring Terrorism timed with hiding this critical
underground hidden US Resource. She is included with many more in the new filed
Civil Rights case tied to this case that shows specific names, dates, and timeline of
8yrs of US Treason by multiple leaders, agencies, courtrooms, lawyers and more.
Mo Discovery was permitted or service from agencies that have a mission
statement to help the Citizens get this resource to their taps as itfs endless and its
water quality is off the chart for health compared to any bottled water or mixture
known to Mankind. It takes a few hours of time to verify the resource with
engineers, labs and/or a qualified professional company and now has been processed
for final permit, so it is very real, not fictitious. Who are these crazy US Judges
and courtrooms who hide dean water, jobs and more for Politicians and Terrorist?
This is US TREASON by Judges!
Plaintiff has served Defendants and is filed on dockets in other cases showing
this Enterprise is connected to a Elite Pedophile Ring that discovery will
demonstrate that is ramped across America and Florida using Cops, Walt Disney
networks, DCF, Military groups and Leaders serving the Elite. So if they aren’t
killing our kids with Cancer Rates at the tap to sell rneds, there are stealing them
with agencies, Epstein Island dans and more to potentially blackmail Leaders on
video, we will demonstrate, to hide Critical Water Resources with Presidents, US
Candidates, and Florida Leaders to destroy our Nation and our homes with polluted
Treated water with Israel Mosaic Phosphate, Hollywood Politicians in
Pedophile rings, Bankers printing money, Judges hiding trails with software
E-file turnover software in Sarasota and more.
This resource will show with its knowledge many more similar resources of
like and kind, across America which NASA and the Dept of Defense, EPA and
FEMA are hiding from THE PEOPLE, including Washington DC, Camp Leguene,
Flint Michigan, Mexico, Texas, Panhandle, California, Mew Mexico, other Nations
in the dessert, from its geological indicators.
Oil Consultants who verified the resource can provide data in Discovery
within the Agencies over the years at the Department of Interior, EPA, Army Corps.
of Engineers, Southwest Florida Water Management District, who hid this Resource^

12

with the Bush Family, Congressional Leaders, Lawyers, Engineering consultants
with NASA and various Universities to create medicine, vaccines, diseases, higher
Cancer Rates from poor raw treated water resources. This Water culling created
more reasons fin* Colleges, tuitions, games that ties to Racketeering our Federal
funds to do 501(c)(3) Cancer Research Grants at USF-Moffit Tampa, to study sick
and dying children, families, and animals from purposely treated radioactive rivers
to the Tap versus this endless Antioxidant spring water to the Tap to millions of
tourist and Americans.
New-filed Racketeering case Gilbert! vs Ardurra, et alt in Tampa US
Middle District Courts, with six Global foreign owned Engineering firms on
continuing service fur this region of West Florida, see review for reconsideration En
Same at US District Court of Appeals, ll1* Circuit with Gilbert! vs Ron Desantis,
et al. Why is Ron Desantis asking Israel to help him with Water and the Bio-fuel
in Lake Okeechobee our consultants can fix in months, who were told to STOP
TAKLIWG due to Obama’s S300million failed Bio-Fuel Political grant to Dow
Chemical/General Electric the US Navy dropped the ball on so Florida Red Tide is
enhanced to buy real estate low with the Tampa Central Command 9-11 Blue Gold
Bush Family Enterprise of Pedophiles and Rich idiots printing our money with the
Crooked Federal Reserve banks and boards.
This new case will show Discovery with Professional Engineers with years of
experience in Water Supply versus a Harvard Lawyer Judge Kentanji Brown
Jackson, from Miami Florida who knows we have water problems and of my
presentations to Miami-Dade on July 15, 2014 at Commission, Item 1E1 and
Broward County on April 12, 2016. Judge Kentanji Brown Jackson is from Harvard
like Obama and is friends with the Defendant ex-President Barrack Obama, who
hid this Resource with the Bush Family as we can show with witness Leaders who
said they saved this US Resource for 9-11 Sarasota Kids Classroom Pedophiles
George/Jeb Bush wishing they had deeds to this US Resource for Israel Mosaic
Phosphate to get campaign money and more to be the next President and kill
millions of more kids, pets and families with virus and cancer rates in water supply.
This was stated in front of 5 wit
and a Cop in the Chambers of City
Council in 2014. This project has been delivered to multiple Cities and will show a
Massive enterprise of Florida Leaders, US Leaders attacking America as these
underground resoi
are hidden across the nation by Elite tied directly to a
massive Pedophile ring in Florida near Palm Beach, Broward and up along the
West Coast of Florida involving DCF, Cops, media groups and major land
developers.

13

CONCLUSION
The Judgment of the court of appeals and lower court should be reversed
and all Respondents should be called in for a Discovery and investigations on said
issues, the US Resource and why they hid this critical medicine production
Resource with timed Terrorist attacks from America and Humanity, shown in
Public Records with many witnesses ready to testify.
Even now in a Coronavirus Pandemic across Earth with a mask shown on
the S20bill since 2003 for the Federal Reserve’s private Rothschild Global World
Bank Monetary Fund and their 9-11 Deep State Blue Gold Bush family games of
Treason with the Hollywood crisis Actors, Attorney Politicians and our US
Congress, Courts and Media, not one Judge, Court, University, Leader or Wall
Street Corporation will DARE call out Engineer Joe Gilberti and verify this World
Resource that shows Mankind where the Federal Reserve and EPA/MASA hid the
rest with the US Military at Tampa Central Command McDill AFB.

14

CERTIFICATE OF COMPLIANCE
JOSEPH D. GILBERT!, JR, PJE.,
an Individual and Licensed Professional Engineer.
Petitioner
V.

FEDERAL RESERVE SYSTEM, Board of Governors, et aL
BARACK HUSSAIN OBAMA,
Respondent^)
As required by Supreme Court Rule 33.1(h), I certify that the petition for writ of
certiorari mntains 3700 words, excluding the parts of the petition that are
exempted by Supreme Court Role 33.1 (d).
I declare under penalty of perjury that the foregoing is true and correct to the best
of my knowledge.
Respondent:

Petitionerfs)

Federal Reserve, Board of Governors

/si foe (fil6en&
Joseph D. Gilberti, Jr., P.E.
385 Donnra Blvd
Fort Myers Beach, Florida 33931
(813) 470-8000
Email: erilbertwater@gmail.com
Web: www.gilbertibluegold.com

Joseph H Hunt
Assistant Attorney General
Robert E. Kirschman, Jr.
Director
Joshua E. Kurland
Trial Attorney
Department of Justice
P.O. Box 480
Ben Franklin Station
Washington DC 20044
Telephone: (202) 616-0477
Facsimile: (202) 353-0461
Email: Joshua.E.Kurland@usdoi.gov

Executed on September 11, 2020
15

